                                                  NAnONAL SCIENCE FOUNDA nON
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESnGAnONS

                                             CLOSEOUT MEMORANDUM

 Case.Number: A09020010                                                                      Page 1 of 1



                 NSF OIG received an allegation that a Proposal) written by a Doctoral Advisor2 and a
          Ph.D. Studene contained plagiarism. Our analysis identified allegedly copied verbatim text, that
          though lacking demarcation either with quotation marks or indentation, did include references to
          sources before or after the material.

                  We contacted the Student regarding the allegation. She said she was the Proposal's sole
          author and acknowledged having copied the material from the source documents albeit with
          references. The Student's response did not dispel the allegation and we concluded there was
          sufficient evidence to proceed with an investigation. We referred the matter to the University.4

                  The University's Investigation Report concluded, based on a preponderance of the
          evidence, that the Student carelessly committed plagiarism in her NSF proposal, which it deemed
          a significant departure from local accepted practices, but not from those with which the Co-PI
          was familiar based on her experience and background. The University did not make a
          determination of research misconduct, and did not take action against the Co-PI.

                 OIG concluded the University followed reasonable procedures and produced an accurate
          and complete body of evidence addressing the allegation. We accepted the Report in lieu of
          conducting our oWfl investigation.

                  Based on the minimal amount of copied material lacking any form of citation and the
          University'S conclusion that the act did not constitute research misconduct under the federal
          definition, we determined the matter is best resolved by sending the Student a letter reiterating
          the need to adequately cite material within NSF proposals, and by sending the University a
          reminder about its responsibilities under the America COMPETES Act. Accordingly, this case is
          closed with no further action taken.




NSF OIG Fonn 2 (I 1102)
